No. ____________________________
_________________________

IN THE
SUPREME COURT OF THE UNITED STATES
_________________________

ASHLEY FERNANDES,
PETITIONER
vs.
COMMONWEALTH OF MASSACHUSETTS,
RESPONDENT

_____________________________

APPENDIX
ON PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT
Leslie W. O’Brien
Post Office Box 31
Pinehurst, MA 01866
781-756-0111
B.B.O. #542413
leslieobrien@comcast.net
Counsel of Record
for the Petitioner

CONTENTS
Commonwealth v. Fernandes, 485 Mass. 172, 148 N.E. 3d 361 (2020)

Commonwealth v. Fernandes, 485 Mass. 172 (2020)
148 N.E.3d 361

485 Mass. 172
Supreme Judicial Court of Massachusetts,
Essex..

COMMONWEALTH
v.
Ashley FERNANDES.
SJC-11732
|
Argued February 14, 2020.
|
Decided July 6, 2020.
Synopsis
Background: Defendant, a native and citizen of India, was
convicted in the Superior Court Department, Essex County,
Timothy Q. Feeley, J., of first-degree murder. Defendant
appealed.

evidence did
intoxication.

not

warrant

instruction

on

voluntary

Affirmed.
**365 Homicide. Constitutional Law, Search and seizure,
Probable cause, Assistance of counsel. Search and
Seizure, Warrant, Probable cause. Probable Cause. Vienna
Convention. Practice, Criminal, Capital case, Motion to
suppress, Assistance of counsel, Instructions to jury. Attorney
at Law, Conflict of interest.
Indictments found and returned in the Superior Court on May
23, 2008.
Pretrial motions to suppress evidence were heard by Timothy
Q. Feeley, J., the cases were tried before him, and motions
for a new trial, filed on August 13, 2015, and December 15,
2017, were heard by him.
Attorneys and Law Firms

Holdings: The Supreme Judicial Court, Kafker, J., held that:

Leslie W. O'Brien, Boston, for the defendant.

warrant to search defendant's digital camera was supported by
probable cause;

Kenneth E. Steinfield, Assistant District Attorney, for the
Commonwealth.

any possible illegality in police officer's search of images
on defendant's digital camera did not warrant exclusion of
images;
violation of Vienna Convention on Consular Relations based
on failure by authorities to advise defendant of his right
to have authorities inform consulate of his arrest and
detention was not constitutional error of structural magnitude
warranting new trial;
violation of Convention did not implicate rights under Sixth
Amendment and Massachusetts Declaration of Rights to
counsel of choice;
appointed counsel's representation of defendant was not
burdened by actual conflict of interest, in violation of
defendant's constitutional right to counsel;
defendant was not entitled to new trial based on claim that trial
counsel was ineffective for failure to bring to jury's attention
victim's statements dismissing concerns about her safety; and

Present: Gants, C.J., Lenk, Budd, Cypher, & Kafker, JJ.
Opinion
KAFKER, J.
*173 A jury convicted the defendant, Ashley Fernandes,
of murder in the first degree in connection with the
strangulation death of his girlfriend, Jessica Herrera. At trial,
the Commonwealth successfully pursued theories of both
deliberate premeditation and extreme atrocity or cruelty. The
defendant was also convicted of assault and battery, but
acquitted of attempted murder by strangling, in connection
with a separate domestic violence incident involving the
victim three and one-half months before the murder.
Information about the murder first came to light on the
night of April 5, 2008, just hours after the victim's death,
when during a casual conversation with another patron at
a bar the defendant twice “blurted out” that his girlfriend
was dead in his apartment. The next morning, the concerned
bar patron reported the conversation to the police. Further

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

Commonwealth v. Fernandes, 485 Mass. 172 (2020)
148 N.E.3d 361

investigation led to a motor vehicle stop of the defendant's car
that afternoon. During the stop, the defendant spontaneously
invited police to search his nearby apartment. In a back
room of the Peabody apartment, police found the victim's
naked body rolled in a blanket. Police took the defendant into
custody, and later that evening he confessed to strangling the
victim inside the apartment. Police immediately sought and
executed a search warrant of the apartment, where they found
graphic images of the victim, **366 taken at or near the
time of her death, stored in a digital camera tucked inside a
kitchen drawer.
In this consolidated appeal from his convictions and from
several related orders denying postconviction relief, the
defendant asserts reversible error arising from the denial of
his pretrial motion to suppress the digital camera images.
He contends that the relevant warrant applications lacked
sufficient information to connect either the camera or its
contents to the homicide, such that the warrants issued
without probable cause.
The defendant, who is from India and is not a citizen of
the United States, also claims that violations of his consular
notification and access rights under art. 36 of the Vienna
Convention on Consular Relations resulted in constitutional
errors of structural *174 magnitude, namely deprivation of
his constitutional rights to (a) representation by counsel of
his choice, and (b) court-appointed conflict-free counsel. We
also address additional claims that trial counsel's decision
not to introduce certain evidence amounted to ineffective
assistance, and that the trial judge's failure to give a requested
intoxication instruction was error. The defendant also seeks
extraordinary relief pursuant to G. L. c. 278, § 33E. Whereas
each of the above claims lacks merit, and we discern no
basis to grant extraordinary relief after plenary review of the
record on appeal, we affirm the defendant's convictions and
the orders denying each of his motions for postconviction
relief.
Factual background. 1. The domestic homicide. The
evidence, viewed in the light most favorable to the
Commonwealth, Commonwealth v. Anderson, 396 Mass.
306, 311, 486 N.E.2d 19 (1985), permitted the jury to find the
following facts. The defendant came to the United States in
2005, when he was twenty-five. In April or May of 2007, the
defendant met the victim at a local bar. The victim, who was
in her mid-twenties, was then working as a dental hygienist
and living in Peabody with her husband and her two sons,
both under two years old. The Department of Social Services

(department) was involved with the family, and the victim's
husband moved out shortly after she met the defendant.
Although the defendant and the victim were not then involved
in a romantic relationship, he moved in with her to help pay
rent and expenses, and assisted with child care. By early
September, the victim and the defendant had established an
exclusive intimate relationship.
The severity of the victim's drinking problem soon
contributed to growing turbulence in her relationship with the
defendant. According to the defendant, one day in October
2007, he returned home from work early to find the victim's
children in the living room crying and the victim “having
sex” with a man he did not know in a different room.
At the defendant's request, the man left. Unprompted by
the defendant, the victim went with him. Finding himself
alone with two distraught children, the defendant called
the department. Representatives of the department arrived
promptly and removed the children; the victim lost custody
of both boys. By working with the department, she managed
to regain custody, however briefly, just before Christmas.
On Christmas Eve, the children went for an overnight visit
with their father's family. Since the defendant's birthday is
the same day as Christmas, the defendant and the victim
met up with another couple to celebrate. The festivities were
cut short, however, *175 because of the victim's excessive
alcohol consumption. After their company left, the victim and
the defendant went to sleep.
**367 According to the victim's later statements to police,
she awoke suddenly to find herself on the floor with the
defendant straddled over her, punching her, slamming her
head against the floor, and calling her a “whore” and a “bitch.”
He told her that he would kill her, and that she would die and
no one would hear her scream. The beating went on for more
than two hours, as she struggled in and out of consciousness,
trying to get up off the floor. He choked her until she could not
breathe. She blacked out. When she regained consciousness,
her ears were ringing, and she begged and pleaded with him to
stop, “trying to say anything for him not to kill [her].” Finally,
he relented. The area around the victim's left eye was black
and blue, and the white of the eyeball was completely blood
red.1 She did not call police, fearing the department would
take her boys away.2
1

At trial, the Commonwealth's medical expert testified
that strangulation may cause “minute hemorrhages,”
apparent in the whites of the eyes when blood flowing

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

Commonwealth v. Fernandes, 485 Mass. 172 (2020)
148 N.E.3d 361
out from the brain is trapped and builds enough pressure
to burst small blood vessels. This phenomenon was
visible in the autopsy photographs, but it also served
to corroborate the victim's report that she had been
strangled on Christmas Eve, given the state of her left
eyeball.

2

Although the children returned from their visit with
their paternal family on Christmas morning and opened
presents, the victim's fears were shortly realized.
When representatives from the department came for
an unannounced visit the next day, they removed the
children immediately upon seeing the victim's injuries.

A few days after Christmas, the victim's stepfather drove to
Peabody to bring the victim back with him to Cape Cod,
where she stayed with her parents for a time. On January 4,
2008, the victim visited the Peabody police station, seeking
help to “remove” the defendant from the apartment. She
spoke with the head of the domestic violence unit, who asked
what had happened. The victim described the attack, made a
written statement, and permitted the officer to photograph her
injuries.3 Later the same day, police arrested the defendant
and a complaint issued in the Peabody Division of the District
Court Department charging him *176 with assault and
battery. Following a weekend in jail, and a Monday court
hearing,4 the defendant was released. The victim obtained a
restraining order and “moved out” for a time.
3

4

At trial, the judge admitted both the officer's testimony
about her meeting with the victim, including the victim's
statements describing the Christmas Eve incident, and
the victim's own written statement regarding the same,
under the theory of forfeiture by wrongdoing. The judge
applied that theory on the ground that precluding the
victim's adverse testimony at the impending April 11
trial of the assault and battery charges arising from these
events was a factor, perhaps among others, that motivated
the defendant to kill the victim.
The victim arrived at the hearing drunk. When the
hearing was over, her stepfather asked the court to have
her civilly committed, so that she could get help. The
defendant's work supervisor testified at trial that the
defendant had told her about his arrest for choking
his girlfriend to the point of unconsciousness, but she
had not believed him. The supervisor also testified that
the defendant had laughed with other workers during a
cigarette break after joking that, in India, he could kill his
girlfriend and nothing would happen to him.

On Valentine's Day, the defendant accompanied the victim to
court, where she successfully moved to vacate the restraining

order. Reconciliation was short lived, however, and during
a telephone argument soon thereafter, the defendant told the
victim's stepfather that he (the defendant) “would be sending
[the victim] home in a box.” Before February ended, the
victim left Peabody again. Her stepfather convinced her to
try a rehabilitation program, **368 but she stayed only one
day before leaving to reunite with the defendant. In early
March, the victim again returned to her parents' home on Cape
Cod, where she stayed with her stepfather for about three
weeks. During this time, the victim met and began spending
time with a man in his early twenties named Brett. She also
interviewed for jobs in the area and started looking for an
apartment nearby. The defendant's pending assault and battery
case was scheduled for trial on April 11, and the department
would not allow the children to visit the victim while she lived
with him. Still, the victim allowed the defendant to visit her
on Cape Cod and had moved back in with him by March 23.
They then spent several days together at a hotel on Cape Cod,
returning to Peabody on or about April 1.
On Thursday, April 3, the defendant visited Salem Hospital
with symptoms including numbness and chest pain. Doctors
admitted him overnight for testing and advised rest. On April
4, he returned home to find the apartment a mess and the
victim drunk; she continued drinking and playing loud music,
disturbing his efforts to rest. At 12:06 a.m. on April 5, the
victim spoke to Brett by telephone and asked him to come to
Peabody and drive her back to Cape Cod. Around 12:45 a.m.,
she called back to say that circumstances had “changed” and
she would “be fine until the morning.”
On the morning of Saturday, April 5, the defendant answered
the victim's cell phone to a male voice saying, “hello
sweetheart.” *177 Upset, the defendant asked the victim
who was on the telephone. She ignored him, and then took the
call in another room. That afternoon, around 2:30 p.m., the
victim telephoned Brett to say that she had a ride to Harwich
later. The defendant took the victim to buy a twelve-pack
of beer, and then both returned to the apartment, where she
invited him to have a drink with her. The defendant had two
or three beers, and the victim drank the remaining nine or
ten. At about 5 p.m., the victim called Brett again, sounding
distressed. She asked him to drive from Plymouth to pick her
up in Peabody, and Brett agreed to come.5
5

When Brett later telephoned the victim for more specific
directions, as planned, he could not reach her, despite
calling repeatedly for almost an hour.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

Commonwealth v. Fernandes, 485 Mass. 172 (2020)
148 N.E.3d 361

Not long after the victim ended the telephone call, she and the
defendant argued, and the verbal altercation escalated into a
physical struggle on the living room floor. As the defendant
himself described during the video-recorded confession to
police the night of his arrest, he put his hands on the victim's
neck and pushed hard, choking her until she urinated. The
victim struggled, “trying kicks” to escape out from under the
defendant; he knew she was not strong enough to succeed,
told her “you can't fight me,” and continued to press down
“hard” on her neck. The victim soon died of asphyxia by
strangulation. Between 5:29 p.m. and 5:36 p.m., the defendant
used a camera to capture five digital images of the victim's
body, two of them showing one of his hands wrapped around
her neck.
After strangling the victim, the defendant then went out to a
bar. He ordered a beer and appeared to be in a good mood.
Later in the evening, the defendant was still nursing the same
beer when he struck up a conversation with another patron.
The bar patron testified that amidst pleasant small talk, the
defendant eventually “blurted out” that his girlfriend was
dead in his apartment, and later stated that the bar patron
would be reading about him in the newspaper. After the bar
closed and the defendant returned home, the victim was still
lying on the floor. He stripped off her clothing and cut off
her bra and a chunk of **369 her hair. After wrapping
the victim's naked body in a comforter and securing it with
several pieces of rope, he moved it into the back bedroom.
2. Arguments at trial. The Commonwealth proceeded on
theories of deliberate premeditation and extreme atrocity or
cruelty, emphasizing the defendant's callous disregard of the
victim, both during her life and after her death, and relying
heavily on the five *178 graphic images of the victim's
body. During the Commonwealth's opening statement, the
jury heard an explicit description of the strangling's physical
effects on the victim's body, and then listened to the
prosecutor recount how the defendant had seized his camera
and taken “five photographs of the horrifying last moments
of [the victim]'s life,” before he headed out for a beer.
Other critical evidence suggesting premeditation was a
calendar that police seized from the defendant's kitchen wall,
opened to the month of April. The April 5 box was entirely
colored over with red marker, but words written in red marker
remained barely visible underneath: “END OF STORY -- NO
MORE LOVE -- 5:00 P.M. -- FINISH.” The calendar boxes
representing April 6, 7, 8, and 9 were empty. In the April
10 box, the words “Jess Birthday” appeared in blue pen. The

April 11 box was completely colored over in red marker, just
like the April 5 box,6 and peeking through from beneath were
the words: “Bench Trial -- Court Peabody -- I am Ready!” All
remaining boxes on the calendar page were empty.
6

The calendar boxes for each of April 1, 2, 3, and 4 were
filled with a large “X” written in red marker, as were all
of the boxes on calendar pages for prior months.

The Commonwealth argued that the calendar evidence
“inextricably linked” the defendant's upcoming trial date with
the murder of the only percipient witness to the incident
resulting in the charge. That the April 5 and April 11 calendar
boxes were colored over in the same manner, with the same
marker, many days before April 11, suggested they were
struck out simultaneously. According to the Commonwealth,
this demonstrated the defendant's manifest purpose of solving
the “problem” posed by the April 11 trial, by killing the
victim on April 5. The defendant strangled the victim, because
he could not risk permitting her to leave the apartment,
apparently into the arms of a younger man and back to her
family who would encourage her to testify against him.
The defense theory was heat of passion upon reasonable
provocation in support of a verdict of voluntary manslaughter,
rather than murder. The defendant testified on his own behalf
as the sole defense witness, citing the detrimental effects of
the victim's alcoholism, infidelity, and disrespectful behavior
on his mental health. The defense also focused on oddities in
the defendant's behavior after the murder to demonstrate lack
of premeditation, particularly his confession to a stranger at
a bar, and his spontaneous *179 invitation to the police to
search his apartment, find the victim's body, and arrest him
-- all when he easily could have boarded an airplane back to
India. The defense countered the prosecution's theory about
the calendar by asking why the defendant would risk life in
prison to prevent conviction on charges carrying a maximum
sentence of two and one-half years. Based on the defendant's
lack of any prior record, the defense argued that any sentence
would likely have been less.
Discussion. 1. The digital camera warrants. The defendant's
principal claim on appeal is that his motion to suppress the
digital camera images should have been granted, because the
relevant warrant applications lacked sufficient information to
**370 show that the camera or its contents were related
to the homicide under investigation. Accordingly, he argues
that the warrants permitting police to (a) seize the camera
from his apartment, and then (b) search the camera's contents,
violated his right to be “secure” from “unreasonable searches

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

Commonwealth v. Fernandes, 485 Mass. 172 (2020)
148 N.E.3d 361

and seizures” of his home and possessions, as guaranteed
under art. 14 of the Massachusetts Declaration of Rights and
the Fourth Amendment to the United States Constitution.
After reviewing the two search warrant applications and their
attendant supporting affidavits here at issue, we conclude that
the nature of the crime -- domestic homicide -- combined
with the particular facts and circumstances here, including
the defendant's pending charge of assault and battery of the
same victim just months earlier, provide a substantial basis
to conclude that a search of the digital camera would provide
evidence relevant to the crime and, consequently, probable
cause for the warrants to issue.
a. Predicate facts. After discovery of the victim's body during
the consent search of the defendant's apartment led to his
arrest and subsequent confession, Peabody police sought
a warrant to perform a further search of the apartment,
and authority to seize the victim's body and, among other
things, “[digital video disc and videocassette recorder (DVD/
VCR) ] tapes, recording devices, cameras and cellular
phones (with chargers).” Upon Detective Sergeant Scott
Richards's application and supporting affidavit, the warrant
(first warrant) issued on the night of April 6, 2008. Police
executed it that same night, at approximately 11 p.m., and
seized items including the victim's body and an “HP Photo
smart digital camera” (camera). The next day, State police
Trooper Brian O'Neill applied for and obtained an additional
warrant (second warrant) authorizing police to search the
defendant's apartment *180 for, and seize “computers,
digital cameras, cell phones, digital storage devices and media
(disks, tapes, thumb drives) and any and all software and
hardware related to computers and other digital devices.”
The second warrant also authorized forensic examination of
“two cellular phones, a digital camera, and a computer,”
each already in police custody, for “graphic evidence of the
crime under investigation” and “any information linking the
defendant to the victim, either through digital photography,
digital documentation, e-mail, Internet and chat activity,
cellular phone history and ... text messaging.”
i. First warrant affidavit. In the affidavit he submitted with
the application for the first warrant (first warrant affidavit),
Richards averred as follows. On the morning of April
6, Peabody police received specific information about an
identified informant's tip to Beverly police. The night before,
the informant had conversed with a man seated next to him at
a bar, who identified himself as Ashley Fernandes and later
stated that (i) his girlfriend was dead in his apartment and
(ii) the informant would read about him in the newspaper in

the next fifteen days. That afternoon, Richards corroborated
this account at an in-person meeting with the informant, who
provided further information, including the defendant's age
and the corporate name and location of his employer.
A police search of internal records showed that identifying
information matched with the resident of a Peabody address,
whom police had arrested for “domestic assault and battery”
on January 4, 2008. Arrest records listed the victim as Jessica
Herrera, the same woman whose body police later found
dead inside that same apartment. Police also matched the
defendant's name, date of birth, and address with registry
of motor vehicles records showing no license status, and a
registration listing him as the owner of a **371 vehicle
registered to that address. Richards located a booking
photograph of the defendant, and the informant confirmed
that the person in the photograph was the man he spoke with
at the bar. The informant also told Richards that the defendant
was jotting things down on a piece of paper throughout their
conversation, including “Fuck the world” and his parents'
address in India; before leaving, the defendant voiced that he
had “too much freedom in this country” and was “ready to
die.”
Richards further attested that an officer he previously
dispatched to surveil the defendant's address had made a
motor vehicle stop of the defendant's car based on his license
status. When stopped, the defendant had spontaneously (i)
asked police if the stop was “about *181 [his] girlfriend”
and (ii) offered police consent to search his apartment.
Richards quickly reported to the scene and obtained the
defendant's verbal consent to search the apartment. The
defendant unlocked the door to the apartment, and police then
followed him inside, where Richards explained the written
consent to search form and the defendant signed it. In the back
room, police located the victim's body wrapped in a blanket
secured with lengths of rope.
Richards cleared the building of police and had it secured as
a crime scene. The defendant was transported to the station,
where he was read Miranda warnings and consented to a
Miranda-waived interview with Richards and O'Neill. During
the interview, the defendant confessed to killing his girlfriend,
Jessica Herrera, inside the apartment on April 5, and then
wrapping her body in a blanket, tying rope around it, and
placing it in the back room. At that time, he also told police
that after he killed the victim, he called her cell phone from
his cell phone and left her a message.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

Commonwealth v. Fernandes, 485 Mass. 172 (2020)
148 N.E.3d 361

ii. Execution of first warrant. During police execution of the
first warrant, a detective located the camera inside a kitchen
drawer and handed it to Trooper James Crump, another
member of the crime scene investigation team, assigned to
take photographs documenting the search. When Crump first
received the camera, it was powered off. He pressed the “ON/
OFF” button to power it on, and then pressed the “back”
button. A digital image of the victim lying dead on the floor
of the defendant's living room appeared on the camera's rear
image display screen. Crump continued to press the “back”
button and discovered four additional graphic images of the
victim's body, two of them close-up shots of the victim's head,
showing the defendant's hands around her neck. Each of the
images was stamped with a date and time in the bottom right
corner. To enable better viewing of the images on a larger
screen, Crump removed the memory card from the camera,
inserted it into a laptop computer, and accessed its contents
so that others on the crime scene team could also view
the images. None of the information regarding opening the
camera and viewing the images contained therein appeared in
either warrant affidavit. Nor was this information presented at
the hearings on the motions to suppress or otherwise provided
to the judge.

given the ease with which they believe such images can be
destroyed or deleted” (footnote omitted).
The affidavit did not mention that officers had already viewed
images stored on the camera, or what those images depicted.

iii. Second warrant affidavit. The affidavit O'Neill submitted
with the second warrant application (second warrant affidavit)
contained all of the same facts Richards included in the
first warrant affidavit, recited supra, but substituted his own
credentials, *182 training, and experience, which included
eight years with the State police, in which capacity he had
investigated over 200 deaths.

Following a two-day evidentiary hearing,8 the motion judge,
who was later the trial judge, issued a written decision
rejecting *183 all of the defendant's arguments and denying
relief. In finding probable cause for the warrants to issue,
the judge observed that the warrant affidavits established
that the murder had occurred inside the apartment where
the electronic devices were located and seized. The judge
continued:

O'Neill further averred that “[d]uring the initial search and
the subsequent search of [the defendant's apartment], the
search warrant executing officers observed a digital camera
and a home computer.” **372 He then added a series
of generalized statements based on officer training and
experience, including the following:
“Based upon my own training and experience [and that
of four other, more experienced State troopers], I know
that it is not unusual for individuals involved in homicides
to memorialize their victims' deaths through audio and
or video media for later viewing, for guilt relief or for
enjoyment as trophies.... [A twenty-nine year veteran of the
State police assigned to the computer facilitated crime unit]
advises [me] that the convenience afforded by the use of
a digital camera, in addition to the anonymity provided to
the user of a digital camera, creates a greater likelihood that
perpetrators will record such information - - particularly

iv. The suppression hearing. Prior to trial, the defendant
sought to suppress his statements to police and all physical
and digital evidence recovered from searches of (1) his
apartment, and (2) the seized electronic devices, including the
camera. Among other arguments,7 the defendant contended
that the warrants were deficient due to lack of probable
cause, in that neither of the supporting affidavits included
sufficient information for the issuing magistrate to conclude
that evidence relating to the homicide would be stored on the
devices seized.
7

The defendant also challenged the legality of the
“pretextual” motor vehicle stop of his car, the
voluntariness of his consent for police to search the
apartment, the validity of his Miranda waiver, and the
voluntariness of his confession. In addition to contending
that there was no probable cause for the warrant to issue,
the defendant asserted that the warrants were defective
because the examining magistrate had not signed them.

“In today's age, computers, cameras, and cell phones
often contain reflections and memorializations of one's
relationships with other persons. That is especially true
with respect to family members and romantic partners.
O'Neill also stated in his affidavit, based on the training
and experience of long-term members of the State Police,
that ‘it is not unusual for individuals involved in homicides
to memorialize their victims' deaths through audio and or
video means.’ ”
Finally, the judge found it “all the more likely” that electronic
devices maintained in the apartment where the death occurred
“could contain images or other reflections of the killing.”
8

Where the judge's assessment of the warrant applications
for probable cause was necessarily confined to the
“four corners” of the affidavit, the hearing testimony

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

6

Commonwealth v. Fernandes, 485 Mass. 172 (2020)
148 N.E.3d 361
on December 10, 2010, and January 3, 2011, largely
addressed facts bearing upon the defendant's other
suppression theories.

b. Probable cause. “[W]hether there was probable cause to
issue the search warrant is a question of law that we review
de novo in a commonsense and realistic manner” (citations
omitted). **373 Commonwealth v. Perkins, 478 Mass.
97, 102, 82 N.E.3d 1024 (2017). “[O]ur inquiry as to the
sufficiency of the search warrant application always begins
and ends with the four corners of the affidavit” (quotation and
citation omitted), Commonwealth v. O'Day, 440 Mass. 296,
297, 798 N.E.2d 275 (2003), such that “we consider only the
facts recited in the affidavit and any reasonable inferences
therefrom,” Commonwealth v. Kaupp, 453 Mass. 102, 107,
899 N.E.2d 809 (2009). See Commonwealth v. Robertson,
480 Mass. 383, 387, 105 N.E.3d 253 (2018) (“Inferences
drawn from the affidavit must be reasonable and possible, but
no showing that the inferences are correct or more likely true
than not true is required”).
To support a finding of probable cause, “the search warrant
affidavit must establish a ‘substantial basis for concluding
that evidence connected to the crime will be found on the
specified premises.’ ” Perkins, 478 Mass. at 104, 82 N.E.3d
1024, quoting Commonwealth v. Tapia, 463 Mass. 721, 726,
978 N.E.2d 534 (2012). The “nexus between the items to
be seized and the place to be searched need not be based
on direct observation,” Commonwealth v. Cinelli, 389 Mass.
197, 213, 449 N.E.2d 1207, cert. denied, 464 U.S. 860, 104
S.Ct. 186, 78 L.Ed.2d 165 (1983), and may be grounded in
*184 “the type of crime, the nature of the ... items [sought],
the extent of the suspect's opportunity for concealment, and
normal inferences as to where a criminal would be likely to
[keep the items sought].” Id. See Commonwealth v. Matias,
440 Mass. 787, 794, 802 N.E.2d 546 (2004) (“to find this
nexus we look at all the allegations in the affidavit as a whole
in a commonsense fashion, not at individual fragments”).
Here, the “type of crime” was the homicide of a domestic
partner inside the home. The defendant had also already
confessed to killing the victim. In addition, the police knew
that the defendant had a recent prior charge of domestic
assault and battery against the same victim. In crimes of
domestic violence, our cases have repeatedly recognized that
evidence explaining the nature of the relationship between
the defendant and the victim is relevant and admissible to
prove state of mind and intent. See, e.g., Commonwealth v.
Oberle, 476 Mass. 539, 550, 69 N.E.3d 993 (2017) (citing
cases); Commonwealth v. Sarourt Nom, 426 Mass. 152, 160,

686 N.E.2d 1017 (1997); Commonwealth v. Martino, 412
Mass. 267, 281, 588 N.E.2d 651 (1992); Commonwealth
v. Robertson, 408 Mass. 747, 751, 563 N.E.2d 223 (1990);
Commonwealth v. Jordan (No. 1), 397 Mass. 489, 492, 492
N.E.2d 349 (1986).
The nature of the evidence sought here was images from
a digital camera police found in the home one day after
the killing. That evidence would obviously provide insights
into the nature of the relationship, including the victim's
appearance at identifiable time periods up to and possibly
including the date of the crime.
All of this is apparent from facts either expressly stated
in the warrant affidavits or reasonably inferred from that
information. Accordingly, the affidavits contain a substantial
basis to support a finding of probable cause that the
digital camera found in the Peabody apartment -- where the
defendant admittedly killed the victim, where police found
her body, and where the defendant was living at the time
police arrested him -- would contain evidence relevant to the
nature of their relationship, the defendant's motive for the
killing, and possibly the killing itself.9
9

We need not, and do not, rely on O'Neill's statements
regarding the “not unusual” proclivity of defendants
charged with homicide to memorialize the deaths of
their victims by capturing images or recordings, and
the advantages that digital cameras uniquely afford such
perpetrators, to find probable cause here.

**374 The defendant's argument to the contrary relies
heavily on our reasoning in Commonwealth v. White, 475
Mass. 583, 591, 59 N.E.3d 369 (2016), where we held:
*185 “In essence, the Commonwealth is suggesting
that there exists a nexus between a suspect's criminal
acts and his or her cellular telephone whenever there
is probable cause that the suspect was involved in an
offense, accompanied by an officer's averment that, given
the type of crime under investigation, the device likely
would contain evidence. If this were sufficient, however,
it would be a rare case where probable cause to charge
someone with a crime would not open the person's cellular
telephone to seizure and subsequent search.”
The instant case of domestic violence could not be more
different for the reasons explained supra. These facts are
readily distinguishable from the armed robbery in White,
where the only connection between the suspect's cell phone
and the crime was generalized police experience locating

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

7

Commonwealth v. Fernandes, 485 Mass. 172 (2020)
148 N.E.3d 361

useful cell phone evidence in other multiple-defendant
criminal investigations. Here, the nexus between the crime
of domestic violence and the camera was specific, not
speculative; there was a substantial basis to believe it would
provide a clear window into the nature of the relationship.
In sum, it was far from “mere speculation” for the magistrate
to conclude that a camera found in the apartment likely
would contain evidence of this crime of domestic violence.
Commonwealth v. Holley, 478 Mass. 508, 521, 87 N.E.3d 77
(2017). There was probable cause for the warrants to issue.
c. Taint of illegality cured by independent source and
inevitable discovery. At oral argument, the defense, for
the first time, argued that the digital images stored on the
defendant's camera should have been suppressed because a
police officer turned on the camera and viewed its contents
while executing the first warrant to search the apartment,
which granted police the authority to search for, and seize, any
“DVD/VCR tapes, recording devices, cameras and cellular
phones (with chargers),” but did not contain a separate grant
of authority to perform a further search of the contents of
those devices. We disagree.
Even if a separate grant of authority was required to search
the camera after it was properly seized, the officers did
not reference any information about the evidence they
discovered on the camera in the affidavit they submitted
in support of the second search warrant, which authorized
the search for digital images. “Evidence obtained during a
search pursuant to a warrant that was *186 issued after an
earlier illegal ... search is admissible as long as the affidavit
in support of the application for a [subsequent] search
warrant contains information sufficient to establish probable
cause to search the premises ‘apart from’ observations
made during the initial illegal ... search.” Commonwealth v.
Tyree, 455 Mass. 676, 692, 919 N.E.2d 660 (2010), citing
Commonwealth v. DeJesus, 439 Mass. 616, 625, 790 N.E.2d
231 (2003) (discussing “independent source” exception to our
exclusionary rule).
There is also no doubt that the police agenda here included
obtaining a search warrant for any “DVD/VCR tapes,
recording devices, cameras and cellular phones” actually
seized during execution of the first warrant: the only value
these items could possibly add to the investigation relied upon
a legal further search of **375 their contents. It is clear
that the decision to seek a warrant was not prompted by
any prior illegal search. Murray v. United States, 487 U.S.

533, 542 & n.3, 108 S.Ct. 2529, 101 L.Ed.2d 472 (1988).
Under these circumstances, legal discovery of the images
was inevitable, and the “inevitable discovery” exception to
our exclusionary rule applies to “cleanse” the images of
any “illegal taint” imputed to them by the police preview.
See Martino, 412 Mass. at 277, 588 N.E.2d 651 (where
valid warrant to search for, seize, and view videotape was
en route, defendant precluded from arguing “that, but for
the [unauthorized] warrantless viewing of the videotape, the
police would never have acquired and viewed it”).
2. Consular notification and counsel of choice. The
defendant contends that the Commonwealth violated the
rights conferred upon foreign nationals by art. 36 of the
Vienna Convention on Consular Relations, Apr. 24, 1963, 21
U.S.T. 77, T.I.A.S. No. 6820 (art. 36 or Convention) when (i)
arresting authorities neglected to apprise him of his consular
notification rights at any time, and (ii) other competent
authorities failed to formally notify the consulate of his arrest
and detention pending trial on homicide charges when the
defendant later sought their assistance. The defendant further
contends that these alleged art. 36 violations are constitutional
error of structural magnitude, as they deprived him of a choice
of counsel and forced him to proceed to trial with counsel who
had a conflict of interest, and therefore entitle him to a new
trial without any showing of prejudice.
We agree with the ruling of the judge who denied the
defendant's first motion for a new trial, who was also the
trial judge. Although the Commonwealth violated its art.
36 obligation to apprise the defendant of his art. 36 rights,
that error was neither *187 constitutional nor structural.
The indigent defendant was promptly provided qualified
appointed counsel, fulfilling the fundamental purpose of
art. 36. See Commonwealth v. Gautreaux, 458 Mass.
741, 752-753, 941 N.E.2d 616 (2011). Neither the Sixth
Amendment to the United States Constitution nor art. 12
of the Massachusetts Declaration of Rights entitles indigent
defendants to choose the particular attorney appointed to
represent them. Commonwealth v. Francis, 485 Mass. 86,
97, 147 N.E.3d 491, 503-04 (2020), citing United States v.
Gonzalez-Lopez, 548 U.S. 140, 144, 126 S.Ct. 2557, 165
L.Ed.2d 409 (2006). Finally, for reasons discussed infra,
defense counsel's representation here was never burdened
by any “actual” conflict of interest. Declining to grant the
defendant a new trial on these grounds was not an abuse of
discretion.10

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

8

Commonwealth v. Fernandes, 485 Mass. 172 (2020)
148 N.E.3d 361

10

“Generally, we consider whether a motion judge
committed a significant error of law or other abuse of
discretion in [ruling on] a defendant's motion for a new
trial.” Commonwealth v. Martin, 427 Mass. 816, 817,
696 N.E.2d 904 (1998). We will find abuse of discretion
where we determine that a decision resulted from “a clear
error of judgment in weighing the factors relevant to the
decision, such that the decision falls outside the range of
reasonable alternatives” (quotation and citation omitted).
L.L. v. Commonwealth, 470 Mass. 169, 185 n.27, 20
N.E.3d 930 (2014). Where, as here, the motion judge
was also the trial judge, we give “special deference” to
the judge's findings of fact and ultimate decision on the
motion. Commonwealth v. Lane, 462 Mass. 591, 597,
970 N.E.2d 284 (2012).

a. Relevant background. At all relevant times, the defendant,
who was indigent, was represented by appointed counsel.
About one month before the trial, the defendant wrote a letter
to the Board of Bar Overseers (board), seeking guidance
regarding the “proper way” to obtain copies of “discoveries”
and items docketed in his case, as “years” of repeated requests
to his **376 appointed counsel had gone unheeded. He also
stated his desire “to contact the diplomatic representative of
[his] country as soon as possible,” given that it was “very
difficult [for him] to understand the law.” Finally, he wrote
that (i) at the time of his arrest, “they did not even call the
[Indian] embassy to tell [him his] rights based on [art.] 36;”
and (ii) he had not received any response to the “numerous
letters” he sent to the embassy himself.
Approximately two weeks after the date of the letter to the
board, with less than thirty days until trial, defense counsel
moved to withdraw. In her motion, she asserted a “complete
breakdown in communication” with her client, who had “lost
confidence” in her. At the motion hearing, after a judge
(motion judge), who was not the trial judge, conducted a
sworn colloquy with the defendant, defense counsel alleged
that the defendant's written “complaint” to *188 the board
gave rise to “an actual conflict [of interest].” She expressed
doubt in her ability “to represent [the defendant] with
zealousness” based on anticipated inability to divorce the
representation from the stigma she associated with being the
subject of such complaint.
The motion judge then told the defendant that it appeared that
the defendant had “filed a complaint with Bar Counsel about
[his] attorney, in an attempt to have her removed.” The “next
time” this happened, the motion judge warned, the defendant
might be forced to decide between proceeding to trial with
his next lawyer or representing himself. When the motion

judge asked whether the defendant wanted defense counsel to
withdraw, however, the defendant replied that counsel could
withdraw if she wanted to. In response to a follow-up inquiry,
he stated: “I didn't file a complaint, I just told her that I'm
asking for -- I wrote a letter.”
After reviewing a copy of the letter to the board,11 the motion
judge recessed to “carefully consider what is in the interest of
justice” and “weigh[ ] all of the factor[s].” On reconvening
the hearing, the motion judge summarized his written findings
from the bench. He first concluded that the defendant was
“satisfied with counsel,” but sought “assistance with what the
court [would] broadly categorize as discovery issues.” The
motion judge then promised to “ensure that [the defendant]
has the discovery materials he desires and a meaning[ful]
opportunity to study them.”
11

The defendant provided the motion judge with a copy
of his letter to the board, which defense counsel had not
yet seen. Counsel explained that she had only learned
about the defendant's “complaint” from a telephone
conversation with Bar Counsel.

Respecting defense counsel's request to withdraw, the motion
judge determined that counsel had filed her motion “in an
abundance of caution” on learning of the letter to the board,
which the motion judge considered “more an expression
of concern [about the defendant's discovery issues] than a
complaint.” Based on “personal knowledge and [defense
counsel's] reputation,” the motion judge then characterized
defense counsel as a “strong advocate” who would be well
prepared and organized at trial and whose “zealous advocacy
[would] not be limited in any way by these circumstances.”
Finally, the motion judge held that the considerations set
forth in Commonwealth v. Carsetti, 53 Mass. App. Ct.
558, 760 N.E.2d 785 (2002),12 “overwhelmingly **377
compel[led]” that he deny the motion: conflict of interest
and breakdown in communication *189 were both absent
from the representation, and there was “no threat to [the
defendant]'s right to a fair trial.” At the time of this decision,
the case was more than four years old.13
12

In Commonwealth v. Carsetti, 53 Mass. App. Ct.
558, 561, 760 N.E.2d 785 (2002), the Appeals Court
suggested factors for a judge's consideration in the
exercise of discretion to grant or deny a request for
new counsel, and generally advised: “While there is
no mechanical test for determining [whether to grant a
request for new counsel on the eve of trial] ..., the judge

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

9

Commonwealth v. Fernandes, 485 Mass. 172 (2020)
148 N.E.3d 361
should make findings showing a balancing between the
defendant's rights and the interests of the Commonwealth
and demonstrating that discretion was in fact exercised.”

13

15

Following extensive pretrial suppression efforts, trial
was initially set for early April 2012, but was twice
continued at defense counsel's request.

As the hearing was coming to an end, the defendant addressed
the court directly, to ask whether he might “request somebody
from the Country of India, like a Diplomatic Representative
so [he could] speak to anybody from [his] country.” Rather
than entertain the request, the motion judge instead resolved
to “leave that to [the defendant] and [his] lawyer.”14 Just
before trial, the defendant filed a pro se pleading purporting
to “preserve [his] rights,” and stating that the he had “tried
to get hold of his Indian Consulate to get in touch with
the Diplomatic Representative” but had neither “heard from
his Indian Consulate” nor received their “help ... based on
[art. 36].” The pleading did not contain any complaint about
defense counsel's representation, or any indication of a desire
to replace her with different counsel.
14

In an affidavit appended to the first part of the defendant's
motion for a new trial, defense counsel admitted that the
defendant had asked for her assistance in contacting the
Indian Consulate, but that she advised him to write to the
consulate himself instead of providing that assistance.

Following his convictions, new postconviction defense
counsel contacted the Indian consulate in New York,15 and
ultimately obtained a written letter therefrom (consular letter)
in support of the arguments advanced in the defendant's
motion for a new trial. The consular letter did not
acknowledge or address whether the consulate had received
any communications from the defendant. It nonetheless
expressed concern that the consulate had not received formal
notification from the Commonwealth of the charges *190
against the defendant,16 stated regret that the defendant
“appear[ed] to have been unfortunately denied of his request
to contact the Consulate since the time of his arrest several
years ago,” and then contended:
“Had the consulate known [the defendant's] attorney had
delayed the trial due to other matters and told the court that
she was unable to represent [him] due to conflict of interest
and breakdown in communications, the Consulate would
have assisted and furnished counsel of [the defendant]'s
choice.”
In closing, the consular letter added that “the Consulate [had]
no financial or legal or liability obligation in this matter.”

16

In an affidavit filed with the sealed copy of the
consulate's letter to the court, postconviction counsel
explained: “ I asked the Consulate to confirm and
document that, pursuant to India's policy of legal
assistance under Article 36 of the Vienna Convention,
India would have provided [the defendant] with his
choice of counsel had the Consulate been contacted as
[the defendant] had consistently requested.” She further
reported: “I am informed by the Consulate that due
to consular immunity the Consulate is immune from
process and unavailable to testify.”
The consular letter stated: “[A]s a Consulate, we are
always concerned about Indian citizens within our
jurisdiction and will render help to the maximum
possible within the permissible rules and regulations of
the Government of India. It is also essential on the part
of the local authorities to report every case of Indians to
the closest Consulate.”

b. Art. 36. The United States is party to the multinational
Convention, which it ratified **378 in 1969. Article 36 of
the Convention,17 which is binding upon both Federal and
State authorities, “sets out the procedure to be followed when
a foreign national is arrested or detained.” Gautreaux, 458
Mass. at 746, 941 N.E.2d 616. In its 2006 opinion in SanchezLlamas v. Oregon, 548 U.S. 331, 347, 126 S.Ct. 2669, 165
L.Ed.2d 557 (2006), the United States Supreme Court left it to
each of the several States to determine whether art. 36 grants
individually enforceable *191 rights and, if so, to establish
an appropriate remedy in the event of breach. See id. at 343,
347, 360, 126 S.Ct. 2669 (“assum[ing], without deciding,”
that art. 36 vests foreign nationals with such individual rights,
but declining to dictate particular remedy for State authorities'
breach of such rights where Convention failed to prescribe
one).
17

In relevant part, art. 36 states:
“1. With a view to facilitating the exercise of consular
functions relating to nationals of the sending State:
“...
“(b) if [a national of the sending State] so requests,
the competent authorities of the receiving State shall,
without delay, inform the consular post of the sending
State if, within its consular district, a national of that
State is arrested or committed to prison or to custody
pending trial or is detained in any other manner. Any
communication addressed to the consular post by the
person arrested, in prison, custody or detention shall
also be forwarded by the said authorities without delay.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

10

Commonwealth v. Fernandes, 485 Mass. 172 (2020)
148 N.E.3d 361
The said authorities shall inform the person concerned
without delay of his rights under this sub-paragraph;
“(c) consular officers shall have the right to visit a
national of the sending State who is in prison, custody
or detention, to converse and correspond with him and
to arrange for his legal representation.”

In 2011, this court first confronted alleged violations by
the Commonwealth of art. 36 obligations in Gautreaux. The
defendant in Gautreaux was born in the Dominican Republic;
he moved to the United States at age fourteen, but never
became a naturalized citizen or achieved English fluency.
Gautreaux, 458 Mass. at 742, 941 N.E.2d 616. In 2003, he
pleaded guilty to criminal charges arising from three separate
arrests. Id. Like the defendant in the instant case, Gautreaux
was never apprised of his art. 36 right as a foreign national to
have the consulate of the Dominican Republic informed of his
arrests, and there was no indication that the consulate was so
informed of any of his arrests or the accompanying charges by
the appropriate authorities.18 Id. at 744, 941 N.E.2d 616. Like
the defendant in the instant case, he was also indigent and the
court appointed counsel to represent him. Id. at 744, 752-753,
941 N.E.2d 616. Years later, notice of Federal deportation
proceedings prompted Gautreaux to file a motion to vacate
his plea and for a new trial. Id. at 742, 941 N.E.2d 616.
18

Our conclusion in Gautreaux that “the notifications
required by art. 36 must be provided to foreign nationals
on their arrest“ does not signify that the Commonwealth's
art. 36 obligations evaporate once the opportunity
for “prompt” performance upon arrest has passed
(emphasis added). Commonwealth v. Gautreaux, 458
Mass. 741, 744, 941 N.E.2d 616 (2011). To the contrary,
the Commonwealth's art. 36 obligations to provide
such notice continue. “Consular notification is always
‘better late than never.’ ” United States Department of
State, Consular Notification and Access: Instructions
for Federal, State, and Local Law Enforcement and
Other Officials Regarding Foreign Nationals in the
United States and the Rights of Consular Officials to
Assist Them, at 29 (5th ed. Sept. 2018). Thus, the
Commonwealth's art. 36 obligations are not the exclusive
province of the police or prison officials interacting with
a foreign national at the time of arrest or detention.

In our decision in Gautreaux, we recognized that art. 36
confers enforceable individual rights on foreign nationals to
receive **379 “the notifications required by art. 36” upon
arrest. Id. at 743-744, 941 N.E.2d 616. We held that to warrant
a new trial upon clear violation of that right, a defendant must
“[a]t a minimum ... establish”19 that “his consulate would
have assisted him in a way that likely would *192 have

favorably affected the outcome of his [criminal] case.”20 Id. at
752, 941 N.E.2d 616. We concluded that the Commonwealth's
failure to apprise Gautreaux of his art. 36 right to consular
notification was not reversible error entitling him to a new
trial, because
“[the defendant] produced no evidence of the practices and
protocols of the [consulate of the Dominican Republic],
or of the advice and assistance it would have provided
on notification of the detention of one of its citizens. An
assumption with respect to such matters is not evidence,
and is woefully insufficient to demonstrate that the
outcome of the defendant's case -- his pleading guilty to
a significantly reduced set of charges with no sentence
of incarceration -- likely would have been different, had
he been informed of his right to have his consulate so
notified.”
Id. We also concluded that Gautreaux had received “the
principal type of assistance envisioned by [art. 36],” that is,
“assist[ance] ... in retaining counsel,” by virtue of the court's
prompt appointment of counsel to represent him throughout
the proceedings, in accordance with the constitutional right
accorded any indigent defendant. Id.
19

20

The Convention does not prescribe a set remedy for
violation of art. 36 in individual cases where the
detainee is subsequently convicted of a crime, but in
Gautreaux, we “acknowledge[d] and accept[ed]” that
the Commonwealth has an obligation, respecting cases
where “clear violations of [art. 36] notice protocols
have been established,” to designate “some process by
which the soundness of a subsequent conviction can
be reviewed in light of the violation.” Gautreaux, 458
Mass. at 751, 941 N.E.2d 616. To fulfill that obligation,
we designated the motion process pursuant to Mass. R.
Crim. P. 30 (b), as appearing in 435 Mass. 1501 (2001),
as the applicable procedure, and a “substantial risk of a
miscarriage of justice” the applicable standard of review.
Gautreaux, supra.
Article 36 certainly does not obligate the consulate of a
“sending State” to provide any assistance at all, although
art. 36(1)(c) provides the consulate with that right. “The
provision secures only a right of foreign nationals to
have their consulate informed of their arrest or detention
-- not to have their consulate intervene, or to have law
enforcement authorities cease their investigation pending
any such notice or intervention.” Sanchez-Llamas v.
Oregon, 548 U.S. 331, 349, 126 S.Ct. 2669, 165 L.Ed.2d
557 (2006).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

11

Commonwealth v. Fernandes, 485 Mass. 172 (2020)
148 N.E.3d 361

Similarly, here, the defendant was never apprised of his right
to have authorities inform his consulate of his arrest upon his
request, and authorities never thus apprised his consulate.21
Nonetheless, the defendant, who was indigent, was promptly
appointed *193 competent counsel to represent him. Apart
from his argument that consular notification would have
provided him with a choice of counsel, which we separately
address infra, the record here is silent as to what, if anything,
proper notice would have provided that the defendant had
not received already. We therefore conclude, as we did in
Gautreaux, that the defendant did not make the minimum
showing that “his consulate would have assisted him in a way
that likely would have favorably affected the **380 outcome
of his case.” Gautreaux, 458 Mass. at 752, 941 N.E.2d 616.
21

We do not subscribe to the Commonwealth's rationale
that the defendant's own efforts to contact the consulate
achieved the purpose of, and thereby released the
Commonwealth from, its art. 36 obligation to inform the
consulate of the defendant's arrest or detention upon the
defendant's request. The Commonwealth's notification
obligations are not contingent upon the success or failure
of the defendant independently to contact the consulate.

c. Right to counsel of choice. We also agree with the judge that
none of the asserted failures by the Commonwealth to observe
art. 36 obligations resulted in any violation of the Sixth
Amendment or art. 12 right to representation by “counsel of
choice.” The defendant here remained indigent throughout
the relevant period, and it is axiomatic that defendants who
require counsel to be appointed for them are not entitled to
choose the attorney appointed and have no “unbridled right
to ... replace one competent [and prepared] attorney with
another” (quotation and citation omitted). Commonwealth
v. Dunne, 394 Mass. 10, 15, 474 N.E.2d 538 (1985). See
Gonzalez-Lopez, 548 U.S. at 151, 126 S.Ct. 2557 (Sixth
Amendment right to counsel of choice “does not extend to
defendants who require counsel to be appointed for them”).
See also Francis, 485 Mass. at 96-97, 147 N.E.3d at 503-04,
citing Commonwealth v. Pena, 462 Mass. 183, 191, 967
N.E.2d 603 (2012) (“[w]ith regard to an indigent defendant,
the right to an attorney does not guarantee the right to any
particular court-appointed counsel”).
In a confusing and cryptic letter written in response to a letter
from the defendant's first appointed appellate counsel, the
Consulate General of India advised the Superior Court:
“Had the consulate known his attorney had delayed the trial
due to other matters and told the court that she was unable

to represent [the defendant] due to conflict of interest and
breakdown in communications, the Consulate would have
assisted and furnished counsel of [the defendant]'s choice.
The Consulate has no objection if [the defendant's first
appointed appellate counsel] represents [the defendant] and
[the defendant] has no reservation about the same. It may
however be noted that the Consulate has no financial or
legal or liability obligation in this matter.”
*194 We interpret the meaning of the consular letter de novo,
as this court is in as good a position as the judge to evaluate
posttrial documentary evidence. Commonwealth v. Phinney,
446 Mass. 155, 158, 843 N.E.2d 1024 (2006), S.C., 448 Mass.
621, 863 N.E.2d 496 (2007). As was its right, the consulate
declined to testify or otherwise appear in court. We read the
letter as carefully avoiding any commitment to provide the
indigent defendant with counsel at the consulate's expense.
As such, the indigent defendant had no choice of counsel.
Furthermore, even if we were to adopt the more generous
interpretation of the letter posited by the judge, we still would
conclude, for the same reasons he did, that no deprivation of a
right to choice of private counsel resulted. As the judge found:
“Despite his contentions in this motion for new trial, and
until this motion, [the defendant] never tied his desire for
communication with his consulate to a desire or intention
to replace [defense counsel] with an attorney of his choice.
See Commonwealth v. Francil, 15 Mass. App. Ct. 35,
41, 443 N.E.2d 420 (1982) (defendant's ‘complaint that
he was deprived of his counsel of his choice smacks of
afterthought’).”
Without such record support, and without a financial
commitment from the consulate, the choice of counsel
argument amounted to nothing more than “speculation on
top of speculation.” The judge succinctly identified and then
dismissed each assumption in turn.
To begin, the judge rejected the assumption that, upon
making Commonwealth-facilitated contact with the consulate
in August 2012, the defendant would have sought assistance
to obtain successor **381 counsel. The only dissatisfaction
the defendant ever expressed with his counsel was limited to
her asserted failure to provide him with copies of discovery
and court filings; he neither criticized her ability, preparation,
or performance in court, nor asked for her to be replaced.
The judge found that “within thirty-days of a twice continued,
four-year old first degree murder case,” the defendant would
not have sought successor counsel but instead would have
continued with the representation of experienced appointed
counsel familiar with the case.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

12

Commonwealth v. Fernandes, 485 Mass. 172 (2020)
148 N.E.3d 361

Next, the judge dismissed the “pure speculation” that
he would have permitted new counsel to appear in the
defendant's case, given its age, serial continuances, and
inevitable Commonwealth objection, especially where the
“competency and effectiveness” of existing counsel were
unquestioned. Rather, the judge found *195 that he would
not have further continued the trial to allow counsel to be
replaced and prepare anew. We discern no error in that
analysis. Even where the defendant has a choice of counsel,
which this defendant did not have, such choice is not absolute.
As we explained in Francis, “[t]he court need not unduly delay
trial to provide the defendant with counsel of his choice.”
Francis, 485 Mass. at 96, 147 N.E.3d at 503, citing Burton v.
Renico, 391 F.3d 764, 771 (6th Cir. 2004), cert. denied, 546
U.S. 821, 126 S.Ct. 353, 163 L.Ed.2d 62 (2005).
d. “Actual” conflict of interest in representation. On appeal
here, the defendant for the first time claims that defense
counsel's representation at trial was impaired by an actual
conflict of interest. Article 12 entitles the criminally
accused to “the untrammeled and unimpaired assistance of
counsel free of any conflict of interest and unrestrained
by commitments to others.” Commonwealth v. Davis, 376
Mass. 777, 780-781, 384 N.E.2d 181 (1978). An “actual” or
“genuine” conflict of interest exists only where an attorney's
own interests or the interests of another client impair the
attorney's independent exercise of professional judgment, see
Commonwealth v. Shraiar, 397 Mass. 16, 20, 489 N.E.2d
689 (1986), such that “prejudice is ‘inherent in the situation,’
” Commonwealth v. Mosher, 455 Mass. 811, 819, 920
N.E.2d 285 (2010), quoting Commonwealth v. Epsom, 399
Mass. 254, 262, 503 N.E.2d 954 (1987). The defendant
must marshal “sufficient, concrete evidence” of an attorney's
divided loyalty to carry “the burden of proving both the
existence and precise character of the alleged conflict of
interest.” Commonwealth v. Cousin, 478 Mass. 608, 617-618,
88 N.E.3d 822 (2018). Once a defendant establishes that an
actual conflict exists, a new trial typically is required without
any need to demonstrate resulting prejudice. See Shraiar, 397
Mass. at 20, 489 N.E.2d 689.
Defense counsel's continued representation of the defendant
was not burdened by an actual conflict of interest at any time
for the reasons found by the judge who ruled on defense
counsel's pretrial motion to withdraw. He found that counsel
filed her motion to withdraw in an abundance of caution
following the defendant's “complaint” to the board, which
the judge expressly found was “not a true complaint in

the sense that is often understood within the Bar.” Based
upon defense counsel's reputation and the judge's personal
knowledge, he further concluded that no threat to “zealous
advocacy” was present, and that defense counsel would be
“well prepared and organized for trial.” Even when defense
counsel objected to the judge's decision denying her motion
to withdraw, and moved to reconsider, the judge made *196
further findings, emphasizing the time he took to review
the applicable **382 case law, even though the defendant
had not in fact expressed a desire for replacement counsel.
Counsel's continued representation following denial of the
motion to withdraw was therefore not burdened by any actual
conflict.22
22

To the extent that the defendant now complains about
defense counsel's requests to continue his trial date to
attend to other client matters, the practical reality that
public counsel carry heavy caseloads, often necessitating
triage, is not the type of “sufficient, concrete evidence”
of counsel's divided loyalty due to other clients' adverse
interests that will establish existence of an “actual”
conflict. See Commonwealth v. Cousin, 478 Mass. 608,
617-618, 88 N.E.3d 822 (2018), citing Commonwealth
v. Mosher, 455 Mass. 811, 820, 920 N.E.2d 285 (2010).

3. Ineffective assistance claims. On appeal from his second
motion for a new trial, the defendant maintains that he was
deprived of the effective assistance of counsel because his
attorney failed to apprise the court of certain additional
evidence refuting the prosecution theory that the murder
of the victim was premeditated to preclude her adverse
testimony at his impending domestic assault trial. This
additional evidence was supposedly to the effect that the
victim was unwilling to testify against the defendant. The
evidence at issue was a one-page document memorializing
the record of a telephone call from the defendant to an intake
coordinator of the employee assistance program available
through his employer on April 2, 2008 (call summary) -- three
days before the murder. According to the call summary, the
defendant “related he is prone to rages and violence against
his [girlfriend] ... when they drink together,” and then reported
that “last night he repeatedly tried to choke her ‘maybe 10
times’ after arguing about her playing her music too loud.”
The call summary further reflects that the victim was also
on the telephone call with the intake coordinator the entire
time, “telling [the defendant] how to answer questions,” and
“making statements such as ‘you have control issues, you
act like the devil.’ ” She dismissed questions about her own
medical and future safety needs, stating, “I'm not getting into
all that with the police again.” It is this last statement that

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

13

Commonwealth v. Fernandes, 485 Mass. 172 (2020)
148 N.E.3d 361

the defendant apparently considers of significant value to his
defense.
According to the defendant, counsel ineffectively squandered
this available evidence where its absence (i) impaired his
ability to contest the Commonwealth's interpretation of the
calendar evidence by substantiating his asserted lack of
concern that the victim would offer cooperating testimony;
and (ii) ultimately led *197 to the judge ruling the victim's
statements to police describing the December 24, 2007 assault
admissible under the theory of forfeiture by wrongdoing.
Because we conclude that the evidence at issue was far
more likely to be prejudicial than beneficial, and there is
no reason to doubt the determination by the motion judge,
who was also the trial judge, that it would not have altered
his pretrial ruling applying the doctrine of forfeiture by
wrongdoing, the defendant's ineffective assistance claim must
fail. Accordingly, the judge's order denying the defendant's
second motion for a new trial is affirmed.
4. Intoxication instruction. Finally, the defendant contends
that the judge committed reversible error by declining to
instruct the jury on voluntary intoxication, as his counsel
requested. As we have previously explained: “[a] jury
instruction on voluntary intoxication is required only where
there is evidence of ‘debilitating intoxication’ that could
support a reasonable doubt as to the defendant's ability to
form the requisite criminal intent.” **383 Commonwealth
v. Carter, 475 Mass. 512, 524, 58 N.E.3d 318 (2016), quoting
Commonwealth v. Lennon, 463 Mass. 520, 523, 977 N.E.2d
33 (2012). There is no such evidence here.
End of Document

The defendant could at best show that he consumed “two to
three beers” over several hours on the day of the murder,
which was insufficient to require an intoxication instruction.
See Carter, 475 Mass. at 524, 58 N.E.3d 318 (no evidence
that defendant's condition at time of murder approached
“debilitating intoxication”). Evidence that the defendant
consumed alcohol in proximity to the crime does not itself
establish a resulting state of “debilitating intoxication” such
as could support reasonable doubt about the defendant's
capability to form the requisite criminal intent. Lennon, 463
Mass. at 523, 977 N.E.2d 33.23
23

We decline the defendant's invitation to revisit our
holding in Commonwealth v. Carter, 475 Mass. 512, 524,
58 N.E.3d 318 (2016), that a defendant's “self-serving
statements are insufficient to warrant an intoxication
instruction.”

Conclusion. Having carefully observed our G. L. c. 278, §
33E, duty to review the entire record, we discern no reason to
reduce or set aside the verdicts. The defendant's convictions
and the orders denying his first and second motions for a new
trial are affirmed.
So ordered.
All Citations
485 Mass. 172, 148 N.E.3d 361

© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

14

